" .




                                                                      ","OF

        s. DEPARTMENT OF COMMERCE

                Office of Inspector General                      'i

                                                                      ~ J.
                                                                      ~..1'ES elf




                                    CENS US B UREA U


                 The Census Bureau s Administration
                          of Joint Statistical Projects


      Final Inspection Report No. SED- 5049-   001/February    1993




                     PUBLIC RELEASE





                                         Office of Systems Evaluation
              '".. '-: ~   . g.	   \~;
                                   ~~' . .                  \ ~ ,
   \~
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       The Inspector Generel
                                                       Washington. o. c.   20230




                  1 2 1993




 MEMORANDUM FOR	                   Dr. Harry A. SCarf
                                   Acting Director
                                   Bureau of the Census




 FROM:	                            Frank     DeG
                                                             ~1
                                               ilitJ
 SUBJECT:	                         Final Report on Inspection of the Census Bureau

                                   Administration of Joint Statistical Projects (SED-5049- 3-OOO1) '


This memorandum transmits our final report on the inspection of the Census Bureau
adminiStration of the authority to participate in joint statistical projects with nonprofit
institutions. The report includes comments from your written response to our draft report as
well as excerpts from the Office of General Counsel' s legal opinion on the applicability of
the Federal Grant and Cooperative Agreement Act of 1977 to the Secretary' s joint statistical
project authority. A copy of your written response is included as an attachment to the
report.

Our inspection concluded that Census had misused the authority to engage in joint statistical
projects in order to avoid complying with federal financial assistance and procurement laws
and regulations. The inspection further concluded that Census had not demonstrated a need
for a special funding instrument. In our draft report , we recommended that Census take
appropriate steps to ensure that future participation in join~ statistical projects is administered
in accordance with federal fInancial assistance and procurement laws and regulations~

Although you agreed to all of our inspection recommendations , we are concerned about your
plan to assess the need for additional legislative authority under Title 13 to meet your
 legitimate-JS1;\. requirements. " We would oppose any legislative proposal to authorize the
use of a                   instrument or to exempt the Census Bureau from the responsibility
~or complyiif        ;federal financial assistance and procurement laws and regulations.

We appreciate the cooperation and courtesies extended by your staff during the inspection.

Attachments

cc:	   James K. White
       Hugh Brennan
       Sonya Stewart
       Clyde McShan
  ~.
, .    .                     .... ...... .......................
                                              . . ............................. ... .. .. .. .. .. ....
                                                                                                    . .. .. ........
                                                                                                               .. .. .. .. .. .......
                                          . . . . .. .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                .. . .




                                                       TABLE 0 F CO NTENTS


                                                                                                                                 PAGE
           EXECUTIVE SUMMARY .......................................


           INTRODUCTION AND BACKGROUND                                                                                                . 1



           PURPOSE AND SCOPE ........................................


           OBSERVATIONS AND CONCLUSIONS .............................


                    Census has not justified the use of a special

                    funding instrument for joint statistical projects
             . . . . . . . . . . . . . . . . . . . . . . . 5



           II.	    Census ' policies and procedures on joint
                   statistical projects are inadequate . . . .            . . . . . . . . . . . . . . . . . . . . . . . . . . . 6



           ill.	   Joint statistical agreements have been
                   misused

           IV.	    Noncompetitive agreements with nonprofit
                   organizations were not justified

                   Census does not enforce the required cost-sharing
                   provisions of joint statistical projects

           RECOMMENDATIONS                                                                                                . . . . . 12



           APPENDIXES

                   Census Bureau Joint Statistical Agreements: Fiscal Years 1989 through 1992

                   Joint Statistical Agreements Selected for Detailed Review

            IT ACHMENT


                   Census Bureau Response to Draft Report dated January 14 ,                       1993.

!'                                     . .




      OFFICE OF INSPECTOR GENERAL

      FINAL INSPECTION REPORT ON

      THE CENSUS BUREAU' S ADMINISTRATION
      OF JOINT STATISTICAL PROJECTS

      EXECUTIVE SUMMARY

     We conducted an inspection of the Census Bureau s administration of its statutory authority
     to participate in joint statistical projects with nonprofit organizations as provided by section 8
     of Title 13 , U.   C. Our inspection had three objectives:

     (1)	    to determine whether the bureau s policies and procedures for administering its

             authority are adequate and comply with the Department' s policies and procedures


     (2)	    to evaluate the bureau s implementation of these policies and procedures , and

     (3)	    to determine whether changes or improvements are needed to ensure that this

             authority is properly administered and that the Department' s interests are protected.


     We became concerned about the Census Bureau s use of joint statistical agreements (JSA)
     during our recent inspection of its information resources planning for the mid- decade. We
     found that the bureau was using JSAs rather than conventional funding instruments such as
     contracts , grants , and cooperative agreements , to defme responsibilities and cost-sharing
     arrangements under joint statistical projects. We questioned

            whether the statutory authority delegated to the Director of the Census Bureau
            included authorization for a special funding instrument

             whether this authority exempted the Census Bureau .from responsibility for complying
            with the federal laws and regulations that govern relationships and the transfer of
            federal dollars between federal agencies and nonprofit organizations , and

            whether the JSAs were used exclusively for joint    projects ,   as the law requires.

     The Census Bureau agreed to seek a written legal opinion from the Department' s Office of
     General Counsel clarifying the scope of its authority under section 8 of Title 13 , U. C. In
     addition , Census agreed to refrain from executing any additional joint statistical
     agreements until the legal opinion has been rendered. We informed the bureau that we
     would conduct an inspection of its participation in joint statistical projects. The results of the
     inspection are the subject of this report.
Office of Inspector General                                                      Inspection Report

The major findings of our inspection are as follows:

       Census has not justified the use of a special funding instrument for joint
       statistical projects. The Census Bureau has taken the position that the authority to
     . engage in   joint statistical projects includes authorization for a special funding
       instrument as well as an exception from the responsibility for complying with the
       Federal Grant arid Cooperative Agreement Act of 1977 and related federal
       procurement and assistance laws and regulations. We found no basis for the Census
       Bureau s position. In addition , we found that the Census Bureau had never obtained a
       written legal opinion clarifying the scope of the authority delegated to the Director of
       the Bureau of the Census under section 8 of Title 13 , U. C. In the absence of a
       written legal opinion , we concluded that the bureau could not justify the continued use
       of a special funding instrument in lieu of a legal instrument such as a contract , grant
       or cooperative agreement. At our request , the Census Bureau agreed to seek a
       written legal opinion from the Depanment' s Office of General Counsel clarifying the
       scope of the authority to engage in joint statistical projects. The bureau also agreed
       to refrain from executing any additional joint statistical agreements until the legal
      opinion has been rendered. (See page 5.


      Census ' policies and procedures on joint statistical projects are inadequate.
      found that" the policies and procedures contained in CAM Chapter K-21         do not
      provide adequate guidance or management controls.        The chapter does not provide
      guidance on the appropriate use of joint statistical agreements , the special funding
      instrument used by the bureau to define relationships between participating parties
      under joint statistical projects. Nor does it reference the federal laws and regulations
      and Department of Commerce policies and procedures that should be followed in
      administering joint statistical projects. In addition , we found that Census had not
      delegated to a specific administrative management official the authority and
      responsibility for ensuring that the bureau s participation in joint statistical projects is
      administered properly, in accordance with relevant laws , regulations
                                                                               , policies and
      procedures. In the absence of adequate policies and procedures and formal
      delegations of authority and responsibility, we concluded that the Census Bureau
      cannot guard against the improper use of JSAs or assure compliance with federal
      fInancial assistance and procurement regulations. (See page 6.

      Joint statistical agreements have been misused. We examined a selected sample of
      JSAs to determine whether these agreements were being used for joint projects , as the
      law requires. In the absence of a formal     definition for the term "joint statistical
      project " we examined these JSAs to determine whether any of them appeared to have
      been jointly defined , jointly performed , focused on a mutual objective , or culminated
\ '                                                                , "




      Office of Inspector General                                                    Inspection Repon


            in a joint product. We found only one JSA that possessed any of these
            characteristics. Rather , the primary purpose of most of the JSAs we examined
            appeared to be the acquisition of services for the bureau s direct benefit and use. The
            Federal Grant and Cooperative Agreement Act of 1977 directs executive agencies to
            use a form of service contract for this purpose. We concluded that the Census Bureau
            should have used contracts to acquire these services. (See page 7.

            Noncompetitive agreements with nonprofit organizations were not justified.
            Department of Commerce policy allows operating units to undertake joint projects
            only when both of the following conditions exist: (1) the project is essential to the
            furtherance of the Department' s program , and (2) the project cannot be done at all or
            done as effectively without the participation of the particular nonprofit , research , or
            public organization. This policy has been incorporated in Chapter K- 21 of the Census
            Administrative Manual. However , we found that the Census Bureau does not require
            program offices to certify that proposed joint projects with particular nonprofit
            organizations comply with this policy. The types of services performed under most of
            the JSAs we examined could have been performed by any number of qualified
            nonprofit or for-profit research institutions , universities , or flfffis. In the absence of
            written certification that the projects proposed for noncompetitive funding require the
            participation of the particular nonprofit organizations , Census cannot demonstrate that
            its noncompetitive agreements with nonprofit organizations were justified.     (See page
            10.

            Census does not enforce the required cost-sharing provisions of joint statistical
            projects. Section 8 of Title 13 ,
                                           U.      , and Department of Commerce policy
            contained in Department Administrative Order 203-    User ' Charges " require that
            operating units equitably apportion the full costs of joint statistical projects between
            the participating parties. However , we found that Census administers its JSAs with
            nonprofit organizations like fixed-price contracts rather than cost-sharing agreements.
            We found no evidence that the bureau examines documentation on actual costs to
            ascertain whether the costs claimed are reasonable and necessary before authorizing
            payments to nonprofit organizations. The Census Bureau has awarded approximately
            143 JSAs to nonprofit organizations since fiscal year 1989 at a total estimated cost of
            $6. 5 million. We found that the bureau s payments to nonprofit organizations are
            made in accordance with fixed schedules set forth in the JSAs , not based on actual
            costs. Without exception , we found that the bureau s total payments to nonprofit
            organizations equaled the cost estimates stated in the original JSAs and amendments.
            (See page 10.




                                                    III
                                              -------




 Office of Inspector General                                                    Inspection Report

 We recommended that the Census Bureau implement the following actions to address the
 findings of our inspection:



        Refrain from executing any new JSAs or amending any existing ones pending the
        receipt of a written legal opinion from the Department' s Office of General Counsel on
        the scope of the bureau s authority under section 8 of Title 13 , U.   , and the
        application of the FGCA Act to the type of furiding instrument    to be used.


        Delegate to a specific management official the authority and responsibility for
        ensuring that the Census Bureau s participation in joint statistical projects is
        administered properly, in accordance with relevant federal laws and regulations and
        Department of Commerce policies and procedures.

        Amend or revise the policies and procedures contained in Chapter K-21 of the Census
        Administrative Manual to address the findings of our inspection and to ensure that
        they comply with federal financial assistance and procurement laws and regulations
        and related Department of Commerce policies and procedures.

Our detailed recommendations begin on page 12.



On November 6 , 1992 ,   the Census Bureau received a written legal opinion from the
Department' s Office of General Counsel on the applicability of the Federal Grant and
Cooperative Agreement Act of 1977 to Census ' authority to engage in joint statistical
projects. OGC concluded that joint arrangements are included within the scope of the
FGCA , and , thus , must be executed as procurement contracts when they involve the
acquisition of property or services for the direct benefit of the government or as cooperative
agreements when they involve the transfer of funds or a thing of value to a non-Federal
recipient. OGC further concluded that the authority to engage in joint arrangements
constitutes neither special procurement authority nor grant authority.

In its response to our draft report , the Census Bureau agreed to all of our inspection
recommendations. The Census Bureau plans to work with the Office of the Secretary to
ensure that joint statistical projects are administered in accordance with federal fInancial
assistance and procurement laws and regulations and related Department of Commerce
policies and procedures. The Census Bureau also plans to revise the policies and procedures
contained in Chapter K-21 of the Census Administrative Manual to conform with these laws
regulations , and policies , and to delegate to a specific management official the authority and
responsibility for ensuring that th e Census Bureau participation in joint statistical projects is
administered properly.
, '                                                . '                                        , "




       Office of Inspector General                                                                  Inspection Report


       INTRODUCTION

      Pursuant to the Inspector General Act of 1978 , as amended , we conducted an inspection
      the Census Bureau s administration         of its delegated authority to participate in joint statistical
      projects with nonprofit institutions. Inspections are special reviews that the Office
      Inspector General undertakes to provide agency managers with timely information about
      operations , including current and foreseeable problems. Inspections also are conducted to
      detect fraud , waste , and abuse    of   budgetary resources and to encourage effective , efficient
      and economical operations.       By    highlighting problems , the OIG intends to help managers
      move quickly to address them and to avoid them in the future. Since inspections are
      designed for quick corrective action by agency managers , they generally do not include the
      detailed analysis associated with a management audit. Our work was conducted in
                                                                         issued by the President' s Council for
      Integrity and Efficiency.
      accordance with the      Interim Standards for Inspections





      BACKGROUND

      The Secretary      of     Commerce has been granted authority under sections 1525 through 1527 of
      Title 15 ,      U.       , to participate in joint projects with nonprofit institutions on a cost-sharing
      basis. This authority was delegated to the heads             of  all Commerce operating units in
      accordance with policies and procedures set forth in Department Administrative Order 203­
        User Charges. " In addition , the Secretary of Commerce has been granted separate authority
      under section 8       of    Title 13 , U.     , to participate in joint statistical projects with nonprofit
      institutions on a cost-sharing basis. This authority was delegated to the Director                of the
      Census Bureau in accordance with Department Organization Order 35­                         Bureau    of the
      Census. "

      The Census Bureau                 s policies and procedures for participating in joint statistical projects with
      nonprofit organizations are contained" in             Chapter K-21 of the Census Administrative Manual
      dated December 18 , 1980. This CAM chapter includes policies and procedures revised in
      response to a 1978 audit conducted by the Office                 of   the Secretary. The Census Bureau
      recently drafted new policies and procedures for awarding joint statistical agreements for
      inclusion in CAM Chapter K-21. A draft copy                   of    the revised policies and procedures was
      provided to us during the inspection.

      The Census Bureau developed and uses a special funding instrument called a "joint statistical
      agreement" instead     of a conventional funding instrument such as a contract , grant , or
      cooperative agreement , to define responsibilities and cost-sharing arrangements and to
      authorize the exchange     of funds between the bureau and nonprofit organizations under joint
      statistical projects. The bureau has used JSAs to acquire services from state and local
                                                                . ,' ,




i "





        Office of Inspector General                                                                                                         Inspection RepOrl


       government agencies and nonprofit organizations for the past                                                     30        years. Policies and
       procedures for formulating and administering JSAs are contained in CAM Chapter K- 21.

       However , the Census Bureau                        s use           of       JSAs has evolved over the past 14 years. A 1978
       audit conducted by the Office                       of     the Secretary               the Census Bureau s administration
                                                                                                  of                             of these
       agreements reported that 95 percent                                    of    the 198 JSAs awarded by the Census Bureau in 1977
       and 1978 were with state and local government agencies. The report stated that these JSAs
       were used to acquire services from the                          the bureau s Geographic Base
                                                                                    agencies in support            of

       File/Dual Independent Map Encoding Program. In exchange for their assistance , the bureau
       reimbursed them for their costs and provided them with copies        the maps produced from                           of

       the base file. The audit report stated that Census spent approximately $6 million on JSAs in
       fiscal year 1977 and during the first four months of fiscal year 1978 , and that it planned to
       spend an additional $2 million on JSAs during the remainder       fiscal year 1978.                              of




       Today, the Census Bureau uses JSAs to acquire a broad range of services from nonprofit
       organizations. Information on JSAsawarded between 1979 and 1988 was not available at the
       time     our inspection. However information provided to us indicates that Census has
               of

       awarded approximately 143 JSAs since fiscal-                                         $6.5
                                                                                             year 1989 at a total estimated cost                  of

       million. Most      the JSAs executed during the past four years were with nonprofit research
                                  of

       institutions or universities for amounts less than $50 000. Total expenditures for work
       performed under JSAs may actu~ly be higher since our estimate does not include information
                                                          JSAs awarded before fiscal year 1989 but
       funded in later years. "
       on the costs          of   extensions to these awards or                              of




       A detailed listing                of   JSAs awarded since fiscal year 1989 is included as Appendix 1. The
       following chart depicts the number                                of        JSAs awarded since fiscal year 1989:


                                               Census Bureau Joint Statistical Agreements (JSA)
                                                                   Fiscal Years 1989 - 1992
                                                                                         NUMBER OF                                 TOTAL BUREAU
                            FUNDING RANGE                                                  JSAs                                       FUND IN G
                            Less than $20 000                                                                                         $ 831 253

                                       000    - $ 49 000                                                                                602 603
                            $ 50 000 - $ 99 000                                                                                         386 007
                            $100 000 - $199 000                                                                                         914 787
                            $200, 000 - $299 000                                                                                        480 000
                                                        . '




 Office of Inspector General	                                                                                    Inspection Report


                                       Census Bureau Joint Statistical Agreements 
                   (JSA)

                                                              Fiscal Years 1989 - 1992
                                                                         NUMBER OF                    TOTAL BUREAU
                     FUNDING RANGE                                         JSAs                         FUNDING
                    Greater than $400 000	                                                                    960 000

                               TOTAL:	                                               143               $ 6   468 033

We became concerned about the Census Bureau s use of JSAs when we examined a number
of   agreements between the bureau and universities during our recent inspection 	                      of Census
ADP planning for the mid- decade. We communicated our concerns to the Census Bureau
Deputy Director and members 	                       of   his senior executive staff at a meeting on July 28 , 1992.
We informed the Deputy Director that we planned to inspect the bureau s administration 

its delegated authority to participate in joint statistical projects with nonprofit institutions.


PURPOSE AND SCOPE
The purpose      our inspection was to evaluate the Census Bureau s administration
                       of 	                                                             of its
authority to participate in joint statistical projects under section 8 of Title 13 , U. C. Our
inspection had three primary objectives:

(1)	          to determine whether the Census Bureau s policies and procedures for administering
              its authority are adequate and comply with the Department' s ,policies and procedures
              for " participating in joint projects

(2)	          to evaluate the bureau                s implementation            of    these policies and procedures , and

(3)	          to determine what changes or improvements are needed to ensure that the bureau
                                                                    Title 13 , U. C. and
              authority is administered in accordance with section 8 	
                                                                 of

              Department  of Commerce policies and procedures.

The scope of our review included all aspects of the bureau s administration of this authority.
We examined the policies and procedures contained in Chapter K-21 of the Census
Administrative Manual dated December 18, 1980 , as well as a recent draft revision to the
chapter. We conducted interviews with selected bureau management officials and examined
documentation maintained in bureau files to obtain information on the implementation 

                                                          . '




Office of Inspector General                                                                                        Inspection Report

these policies and procedures. Our inspection also included a follow-up review    of the
bureau s implementation of recommendations from the 1978 Office of the Secretary audit
the Bureau s policies and procedures for administering joint statistical agreements.

We selected a sample of JSAs for more detailed review.                                 Our sample was composed                 of

JSAs awarded to nine nonprofit organizations between fiscal years 1989 and 1992 at a total
estimated cost    $4. 2 million. This represented two-
                              of                              the funds awarded by the
                                                                              thirds      of

bureau for JSAs during this period. The following chart depicts the amount of funding and
the number     JSAs awarded to these organizations. A detailed listing of the JSAs included
                         of

in our sample is provided as Appendix 2.


                               Sample          of   Selected Census Bureau Joint Statistical Agreements

                                                            Fiscal Years 1989 - 1992

                                                                              NUMBER OF                      CENSUS BUREAU
       NAME OF NONPROFIT INSTITUTION                                            JSAs                              FUND IN G
                 University              of   Chicago , National Opinion
                 Research Center                                                                                 $ 1   041 649
                 University             of    Michigan                                                                 667 , 105
                 University             of    Maryland                                                                 488 160
                 Iowa State University                                                                                 477 705
              Harvard University                                                                                       454 902
              The Urban Institute                                                                                      324 388
              University                of    Puerto Rico                                                              315 790
              Carnegie Mellon University                                                                               230 000
             University                 of    Illinois                                                                 197 500
                                              TOTAL                                                              $ 4   197 199
                                                   , "            . '                                                                                                    , "




  Office of Inspector General                                                                                                                            Inspection Report


  OBSERVATIONS AND CONCLUSIONS

                 Census has not justified the use of a special funding instrument for joint
                 statistical projects.

 The Census Bureau has taken the position that the authority to engage in joint statistical
 projects includes authorization for a special funding                                                          instrument as well as an exception from
 the responsibility for complying with the Federal Grant and Cooperative Agreement Act of
 1977 and related federal procurement and assistance laws and regulations. The Secretary of
 Commerce is authorized by sections 1525                        Title 15 , U.    , to participate in
                                                                                          through 1527               of

joint projects with nonprofit organizations. This                                                all      authority was delegated to the heads                                of

 Commerce operating units in accordance with Department Administrative Order 203-               User
 Charges. " In addition                    , the Secretary                        of   Title 13
                                                                                       Commerce is authorized by section 8                                of

         , to engage in joint statistical projects with nonprofit organizations. This authority
 was delegated to the Director                      the Census in accordance with Department
                                                           of     the Bureau                  of

Organization Order 35-                      the Census. " The FGCA Act distinguishes between
                                                         Bureau              of

federal procurement relationships and federal assistance relationships and establishes
government- wide cri~eria for the selection and appropriate use of legal instruments.

We found that neither Title 13, U.         , nor Title 15 , U.     , contain specific language
authorizing the use     a special funding instrument. Nor do these laws imply such authority.
                                      of

Section 8    Title 13 , U.
                      of       , states , as follows: "                 nonprofit agencies or               In the case           of

organizations , the Secretary may engage in joint statistical projects                    which are                                      , the purpose         of

otherwise authorized by law                              such projects are shared equitably, as
                                                     , but only if the cost                          of

determined by the Secretary. Title 15 , U.           , which is similarly worded , states as
follows: " In the case of nonprofit organizations , research organizations, or public
organizations or agencies , the Secretary may engage in joint projects , or perform services , on
matters          of                       which shall be apportioned equitably, as determined by
                       mutual interest, the cost                        of

the Secretary, who may, however                                         such costs by others , when
                                                                   , waive payment                        of     a portion        of

authorized to do so under regulations approved by the Office                                                                 of        Management and Budget.

In addition , we found no evidence                                      to indicate that joint statistical projects would not be
subject to the Federal Grant and Cooperative Agreement Act of 1977. The FGCA Act
states , in part: " Notwithstanding any other provision of law , each executive agency
authorized by law to enter into contracts , grants or cooperative agreements , or similar
arrangements is authorized and directed to enter into and use types of contracts , grant
agreements , or cooperative agreements as                this Act." OMB' s guidance on the
                                                                                         required          by

implementation     the FGCA Act requires all executive agencies to comply with this Act in
                               of

selecting and using appropriate legal instruments. The FGCA Act authorized OMB to grant
temporary exceptions to the responsibility for complying                                                              with this law for a period                    of   up

three years following its enactment. We found no evidence that the Census Bureau had ever
                        , "                           . '                                                                          , "




  Office of Inspector General                                                                                                 Inspection Report


 requested or received a temporary OMB exception from the FGCA Act for joint statistical
 projects. However , any temporary exceptions to the FGCA Act granted by OMB would
 have expired no later than January 1981.

 We also found that the Census Bureau had never obtained a written legal opinion clarifying
 whether the statutory authority delegated to the Director of the Bureau    the Census
                        of

 included authorization for a special funding instrument or an exception from the

 responsibility for complying with the FGCA Act and related laws and regulations. Based on
 our review , and in the absence of a written legal opinion , we conclude that the Census
 Bureau cannot justify the continued' use   of a special funding instrument in lieu of a legal
 instrument such as a contract , grant , or cooperative agreement. At our request , the Census
 Bureau agreed to seek a written legal opinion from                  General Counsel clarifying
                                                                                      the Office       of

 the scope   the authority to engage in joint statistical projects and to refrain from executing
                   of

 or amending any joint statistical agreements until the written legal opinion has been rendered.

 II. Census '            policies and procedures on joint statistical projects are inadequate.

The Census Bureau     s policies and procedures contained in CAM Chapter K- 21 do not
provide adequate guidance or management controls. This chapter does not provide adequate
guidance on the appropriate use of joint statistical agreements , the special instrument used to
define relationships and cost-sharing arrangements between the Census Bureau and nonprofit
organizations under joint statistical projects. CAM Chapter K-21 does not include a
definition for the term "joint statistical project." Nor does it describe or provide examples of
the unique qualities and characteristics that define relationships under joint statistical projects.
The chapter also lacks guidance to help program managers distinguish joint relationships
from procurement or assistance                                                    1977. In the
                                                     relationships as defIned in the FGCA Act                            of

absence       of                             this special instrument , we conclude that the
                    guidance on the proper use                     of

Census Bureau cannot guard against the misuse of JSAs or assure compliance with federal
financial assistance and procurement regulations.

In addition ,
            CAM Chapter K-21 does not provide guidance to help program offices
accurately estimate and apportion the costs of joint statistical projects.                Title 13             Section 8           of

       , requires that the full costs of joint statistical projects be apportioned equitably
between the participating organizations. Department Administrative Order 203-            User
Charges                                    joint projects be determined in accordance with
               " requires that the full costs                 of

DAO- 203-4 Accounting Principles and Standards                                    Handbook of
                                                                                    , ~ and the accompanying

Accounting Principles and Standards 
     authorized by this DAO. However , CAM Chapter K­
21 does not reference these DAOs. Although the chapter states that the value of the data
services , or materials contributed by the other organization must be considered
 approximately equal" to the vallle of the bureau ' contribution to the project , it does not
provide guidance to help program                         managers accurately estimate the costs                     of        joint projects or
 Office of Inspector General                                                   Inspection Report

 apportion those costs between the participating parties on an equitable basis. In the absence
 of adequate policies and procedures , we concluded that Census cannot ensure that accurate
 and consistent methods are used in developing cost estimates , that the methods used to
 estimate costs comply with the Department's accounting principles and standards , or that the
 full costs of joint projects are apportioned between the participating parties on an equitable
 basis , as required by law.

 We also found that the bureau s propOsed revisions to its policies and procedures on joint
 statistical projects would eliminate the requirement that payments to nonprofit organizations
 be based on actual costs. Section 8 of Title 13 , U.      , requires that the costs of joint
 statistical projects be equitably shared between the participating parties. The bureau s plans
 to eliminate the requirement that payments be based on actual costs would be a violation of
 the statutory authority to participate in joint projects.

 Furthermore , we found that the Census Bureau had not delegated to a specific administrative
 management official the authority and responsibility for ensuring that the bureau
 participation in joint statistical projects is administered in accordance with established laws
 regulations , policies and procedures. Planned revisions to CAM Chapter K- 21 would
 establish a " Joint Statistical Agreement Committee " to be chaired by the Associate Director
 for Statistical Design , Methodology and Standards. The purpose of this committee wouId be
 to coordinate the development of an annual bureau plan for joint statistical projects.
However, neither the existing CAM Chapter nor the planned revisions to this chapter
delegate to a specific administrative management official the authority and responsibility for
ensuring that joint statistical projects are administered in accordance with established laws
regulations and policies. In the absence of clear delegations of authority and responsibility,
Census cannot guard against potential misuse of the authority to engage in joint statistical
projects or assure compliance with federal financial assistance and procurement laws
regulations , and policies.

ID.    Joint statistical agreements have been misused.

The inspection determined that most of the bureau s JSAs with nonprofit organizations were
not for joint projects. In the absence of a Census Bureau defInition for "joint statistical
project" or other bureau guidance on the appropriate use of joint statistical agreements , we
referred to the government-wide criteria for the selection of legal instruments contained in
the Federal Grant and Cooperative Agreement Act of 1977. The FGCA Act distinguishes
between federal procurement relationships and federal assistance relationships. In addition
the law establishes the primary purpose of a relationship between an executive agency and a
non- federal recipient as the principal criterion to be used in selecting an appropriate legal
instrUment. We applied this criterion to the JSAs included in our sample to determine
whether the primary purpose of the relationships defined in the bureau s JSAs with nonprofit
, '




       Office of Inspector General                                                        Inspection Report

       organizations differed from the relationships typically defined in contracts , cooperative
       agreements , and grants.

       We examined the JSAs to determine whether they appeared to be jointly defined , jointly
       conducted , focused on a mutual objective , or culminated in a joint product. We found only
       one JSA that possessed any of these characteristics. Under this JSA , the Census Bureau and
      the Urban Institute cO-authored two papers on methods of counting homeless persons.
      find it conceivable that the Census Bureau could have used a cooperative agreement as the
      legal instrument defining its relationship with the Urban Institute under this joint project.

      None of the relationships defined in the JSAs we examined appeared to be assistance
      relationships as defIned in the FGCA Act. The FGCA Act directs executive agencies to use
      a grant or a cooperative agreement as the legal instrument whenever the primary purpose of
      the relationship is " the transfer of money, property, services , or anything of value to the
      recipient in order to accomplish a public purpose of support or stimulation authorized by
      Federal statute.... " The Census Bureau would need to obtain separate legal authority to enter


      examined.
      into purely assistance relationships; However , the accomplishment of a " a public purpose of
      support or stimulation " did not appear to be the primary purpose of any of the JSAs we



      The relationships defined in most of the JSAs we examined were virtually indistinguishable
      from those defined in conventional service contracts between executive agencies and non-
      federal contractors in which the contractor performs specific services for an agency in
      exchange for a fee. Although Census claimed the recipients of JSAs also got some benefit
      we concluded that the primary purpose of most of these agreements . was the acquisition of
      services for the direct benefit and use of the Census Bureau. The FGCA Act directs
      executive agencies to use a form of contract whenever the primary purpose of the
      relationship is " the acquisition , by purchase , lease , or barter , of property or services for the
      direct benefit or use of the Federal Government. "

      In addition ,
                  we found that Census has used JSAs interchangeably with contracts in acquiring
      a broad range of similar services for its direct benefit and use. These services include
      technology services , technology assessment , statistical analysis , methodological research , and
      minority-focused and special populations research. Detailed descriptions of the JSAs
      examined during our inspection are contained in Appendix 2. Examples of the services
      acquired by the Census Bureau using JSAs include:

             $960 000 to the National Opinion Research Center , University of Chicago , to design
             conduct , and analyze the results of a Census Bureau survey of attitudes and
             characteristics affecting the decision to participate in the Decemiial Census (JSA- 90­
             22). Deliverables provided by the      university under this JSA included periodic
                                                        . '




  Office of Inspector General                                                                                 Inspection RepOrl



             progress reports , a draft                 and final report ,         and a data tape, a code book , and copies of
             the survey questionnaire

             $245 000 to the University of Maryland to plan and conduct advanced computer
             studies on Census Bureau computing applications with an emphasis on parallel
             computing, and to educate and train Census Bureau staff in advanced computing
             techniques (JSA- 89-                  , 91-          , and 91- 33),

             $110 000 to the University       of Maryland for the development and implementation

             algorithms for performing complementary suppression in three-dimensional statistical
             tables using FORTRAN       (JSAs     89- , 90- , and 91- 19). Deliverables provided by
             the university under these JSAs included FORTRAN software designed to run on
             Census Bureau IBM PC/ AT microcomputers and a draft and fInal report                of the work
             performed under the JSA     ,  and

            $82 000 to the NORC                   Chicago , for a statistical analysis of the total
                                                   , University        of

            error in the bureau s 1990 Post-Enumeration Survey (JSA-9Q-60). Deliverables
            provided by the university under this JSA included a draft and final report.

 The Census Bureau recently awarded eight contracts for the acquisition of these categories of
 advisory and assistance services in support                                of   planning for the 2000 Decennial Census.
least two         of   these contracts were awarded to nonprofit research organizations that have
performed these types 
                  of    services for the bureau in the past under JSAs. The Department'
Advisory and Assistance Services Review Panel has. given the Census Bureau approval to
expend up to $1 million under these contracts. However , the bureau anticipates that the
services to be acquired using these contracts may eventually exceed .$5 million. Should
become necessary to do so , the bureau plans to request the Panel' s approval to raise the
current approved spending limit for these contracts.

Census management officials interviewed during our inspection acknowledged that they
preferred to use JSAs rather than contracts in acquiring statistical analysis services. Most
the managers interviewed indicated that JSAs enabled them to acquire services more quickly
and with less " red             tape "        than was possible with contracts. The long lead times , the
difficulties associated with developing detailed work specifications for statistical projects , and
the cumbersome competitive selection procedures were the reasons most often cited against
the use      of    contracts. Despite these explanations ,    we conclude that the Census Bureau cannot
justify the continued characterization              procurement relationships as joint statistical projects.
                                                                  of

In view     of our finding that the primary purpose        of  most of the bureau s JSAs was the
acquisition    of   services for its direct benefit and use , we conclude that the Census Bureau
should have used contracts to acquire these services
                                                , "




 Office of Inspector General	                                                        Inspection Repon

IV.	     Noncompetitive joint statistical agreements with nonprofit organizations were not
         justified.

The Department allows operating units to undertake joint projects when both of the following
conditions exist:

(1)      The project is essential to the furtherance of the Department' s program , and

(2)      The project cannot be done at all or done as effectively without the participation
         the particular nonprofit , research , or public organization.

The Department' s policy on participation in joint projects has been incorporated in CAM
Chapter K-2L However , we found that the Census Bureau s review procedures do not
ensure compliance with the Department' s policy. Census program offices are not required to
provide written certification that the effectiveness of a proposed joint statistical project
requires the participation of a particular nonprofit organization. Nor does the bureau
internal review process provide for- an independent review of proposed projects to ensure that
they comply with this policy. The bureau has awarded approximately 143 JSAs to nonprofit
organizations noncompetitively since fiscal year 1989 at a total estimated cost of $6.5
million. The services performed under most of these JSAs could have been penormed by
any number of qualified nonprofit or for-profit research institutions , universities , or flfffiS.
In the absence of written certification that these projects were determined to comply with the
Department' s policy on noncompetitive participation in joint projects , we conclude that the
Census Bureau cannot demonstrate that these noncompetitive awards were justified.
addition , we conclude that the bureau would be ill-prepared to defend its JSAs with particular
nonprofit organizations in the event of . a protest filed by an organization or firm that had not
been given an opportunity to compete for an award.

        Census does not enforce the required cost-sharing provisions of joint statistical
        projects.

CAM Chapter K-21 sets forth the following policies that apply to the bureau s administration
of the required cost-sharing provisions of joint statistical projects:

        Program offices must maintain a detailed " record of negotiation " for each JSA that
        describes all of the steps of the bureau s negotiations with nonprofit organizations
        including how the respective costs and shares of effort were agreed upon.




      Department Administrative Order 203-            User Charges   " as amended.
,'




     Office of Inspector General                                                      Inspection Repon


             Census Bureau payments to nonprofit organizations for work performed under a JSA
             will be based on actual costs incurred by the _ participating
                                                                     organization.

             Final payment for work performed under a JSA will be made when documentation of
             the actual costs of the entire project have been reviewed by the Census Bureau and
             determined to be complete and acceptable.

     However , we found that Census administers its joint statistical agreements with nonprofit
     organizations like fixed-price contracts , not cost -sharing agreements. The bureau does not
     review documentation on actual costs to determine whether the costs claimed are reasonable
     and necessary or whether refunds or reimbursements are due. The bureau s payments to
     nonprofit organizations are not based on actual costs. Rather , Census Bureau payments to
     nonprofit organizations are made in accordance with fIXed payment schedules set forth in the
     JSAs. None of the JSA files we examined included the required " record of negotiation " or
     other written documentation to indicate how the costs of joint projects were determined and
     apportioned. However , we found that , without exception , the bureau s total payments to
     nonprofit organizations equaled the total estimated costs identified in the original JSAs and
     amendments.

     In addition ,
               we found that the Census Bureau had never implemented the financial
     management recommendations from the Office of th~ Secretary' s 1978 audit of the bureau
     use of joint statistical agreements. The audit identified the need   for greater fInancial and
     administrative controls over the award of funds to nonprofit organizations for work
     performed under joint statistical agreements. The audit report recommended that the bureau
     amend the language used in its JSAs to clearly state that payments would be based on actual
     costs. The audit found that the JSAs included conflicting language ' that indicated that
     nonprofit organizations would be paid a fixed sum. The report cited two reasons why it was
     important to clarify JSA payment provisions: (1) the Census Bureau s evaluations of the
     estimated costs contained in the proposals were not sufficiently precise to allow for fIXed­
     price agreements , and (2) fixed-price agreements would preclude post award audits to
     recover unused funds and costs improperly charged to the project. However , Census never
     amended these conflicting payment clauses.

     The audit report also stated that the bureau could not provide assurance. in the absence
     audits that it had paid its fair share of the costs of joint projects. The bureau s revised CAM
     Chapter K-21 dated December 18 , 1980 incorporated the requirement that audits be arranged
     for all JSAs awarded for amounts greater than $100, 000. However , the bureau has never
     arranged for the conduct of audits. By failing to arrange for these audits , the Census Bureau
     has foregone the opportunity to recover unused funds and to identify and disallow costs
     improperly charged to JSAs. In . addition , by failing to clarify the payment provisions of
     JSAs and to amend its practices accordingly, we conclude that the bureau has not properly
                                                           , "




 Office of Inspector General                                                     Inspection Report

 administered its authority under section 8 of Title 13 , U.    , which provides that the cost
 of joint projects be shared equitably between the participating parties.

 Since most of the JSAs we examined were not for joint projects , cost-sharing probably would
 not have been appropriate. Subpart 16. 303.
                                                (b) of the Federal Acquisition Regulation states
 that cost-sharing contracts may be used when the contractor agrees to absorb a portion of the
 costs , in the expectation of " substantial compensating benefits. It The FAR further states that
cost-sharing may not be appropriate when " the     particular objective or scope of effort for the
project is specified by the Government rather than proposed by the performing organization
or if " the effort has only minor relevance to the non-Federal activities of the performing
organization , and the organization is proposing to undertake the effort primarily as a service
to the Government. " All but one of the JSAs we examined complied with the latter two
criteria , although they were not awarded as contracts.


RECOMMENDA TIONS

The Director of the Bureau of the Census should implement the following recommendations:

Recommendation #1


Refrain from executing any new joint statistical agreements or amending any existing ones
pending the receipt of a written legal opinion from the Department' s Office of General
Counsel clarifying whether the authority delegated to the Census Bureau by the Secretary
Commerce under Department Organization Order 35-           Bureau of the Census " includes
authorization for a special funding instrument.
Recommendation #2


Delegate to a specific management official the authority and responsibility for ensuring that
the Census Bureau s participation in joint statistical projects is administered in accordance
with section 8 of Title 13 , U.   , sections 1525 - 1527 of Title 15 , U.        , relevant federal
financial assistance and procurement regulations , and Department of Commerce policies and
procedures.

Recommendation #3


Revise the policies and procedures contained in Chapter K-21 of the Census Administrative
Manual as neceSsary to ensure that they comply with relevant federal financial assistance and
procurement regulations and Department of Commerce policies and procedures. At           a
minimum , the chapter should be revised to include the following:
                                                      . '                  ----------             ,"




 Office of Inspector General	                                                                                           Inspection Report


 (a)	        a policy statement that the Census Bureau s authority to participate in joint statistical

             projects will be administered consistent with federal fInancial assistance and

             procurement laws and regulations and Department 	   of  Commerce policies and
             procedureS; and

 (b)	        policy guidance on Census Bureau participation in joint statistical projects that
             includes
             (1)	        a definition for the term "joint statistical project
             (2)	       uniform criteria and examples to help program offices equitably apportion the
                        full costs of joint statistical projects between participating organizations , and
             (3)        criteria and examples to help program offices distinguish among and select
                        appropriate funding instruments.





 On November 6 , 1992 , the Census Bureau received a written legal opinion from the
Department' s Office 	 of General Counsel on the applicability 	                   of the Federal Grant and
Cooperative Agreement Act                      of   1977 to Census ' authority to engage in joint statistical
projects. OGC concluded that joint arrangements are included within the scope                           of the
FGCA , and , thus , must be executed as procurement contracts when they involve the
acquisition        of  property or services for the direct benefit 	          of the government or as cooperative
agreements when they involve the transfer 
                            of     funds or a thing    of   value to a non-Federal
recipient. OGC further concluded that the authority to engage in joint arrangements
constitutes neither special procurement auth~rity nor grant authority.

In its response to our draft report                    , the Census Bureau agreed to all 	               of    our inspection
recommendations. The Census Bureau                                plans to work with the Office               of   the Secretary to
ensure that joint statistical projects are administered in accordance with federal fInancial
assistance and procurement laws and regulations and related Department 	        Commerce                           of

policies and procedures. The Census Bureau also plans to revise the policies and procedures
contained in Chapter K-          the Census Administrative Manual to conform with these laws
                                       21     of

regulations , and policies , and to delegate to a specific management official the authority and
responsibility for ensuring that the Census Bureau s participation in joint statistical projects is
administered properly. (See Attachment 1.
                                                  . '




                                                           APPENDIX 1

                                                                                                             Page 1   of


                                   Census Bureau Joint Statistical Agreements
                                                                                                  (JSA)
                                                        Fiscal Years 1989 - 1992
           NAME OF NONPROFIT                                                CENSUS BURBA U                NUMBER OF
              INSTITUTION                                                       FUNDING                      JSAs
           University         of     Chicago , National

           Opinion Research Center                                              $ 1    041 649

          University          of     Michigan                                          667 105
          University          of     Maryland                                         488 160
          Iowa State University                                                       477 705

          Harvard University                                                          454 902

         The Urban Institute                                                          324 388

         University          of     Puerto Ricp                                       315 790

         Carnegie Mellon University                                                   230 000
         University          of     IlIinois                                          197 500
 10.    Northwestern University                                                       146 276
 11.    University       of        Toledo                                             125,478
 12.    Research Triangle Institute                                                   112, 906
 13.    Ohio State University                                                         110. 000
 14.   University        of        California. LA.                                    103. 723
 15.   University of Texas                                                                856
16.    Penn State University                                                          69, 650
17.    University       of         Wisconsin                                          68, 614
18.    University       of         So~ California                                        274
19.    Arizona State Universitv                                                       55, 107
20.    Coppin State College                                                           50. 239
21.    University of Houston                                                          50. 153
22.    Social and Econ. ScienCe                         Center                    48. 913
                                                                                  Page 2 of 4
                           Census Bureau Joint Statistical Agreements (JSA)

                                         Fiscal Years 1989 - 1992
              NAME OF NONPROFIT                      CENSUS BUREAU            NUMBER OF-
                    INS TITUTI ON                         FUND IN G              JSAs
      23.     University of Iowa                                     917
  24.         Duke University                                        846
  25.         University of Oregon                            45, 955
  26.         Brown University                                45, 000
  27.         Kansas State University                               487
  28.         Nathan Kline Institute                          43, 055
  29.         University of New York                          38, 000
  30.         University of NC , Wilmington                         346
  31.         American Statistical Assn.                      35, 323
 32.         University of Massachusetts                            545
 33.         Broward Co. Comm. Serv.
             Council                                                323
 34.         Zentrumfor U mfragren
             Methoden & Analysen                                774
 35.         City University, NY , Rsch.
             Found.                                             052
 36.         North Dakota State University
                                                                000
 37.        Columbia University                                 993
38.         Fla. International University                       956
39.         Southern Illinois Universitv                        869
40.         Tulane University
                                                                321
41.         Centro De Estud.
            Microeconomics                                      000
42.         University of Florida
                                                               000
43.         Hampton University
                                                               000
44.         National Governors ' Assn.                         500
                                              . '




                                                                                                        age   3f
                                  Census Bureau Joint Statistical Agreements                (JSA)
                                                    Fiscal Ye3rS 1989 - 1992
          NAME OF NONPROFIT                                                CENSUS BUREAU            NUMBER OF
             INSTITUTION                                                       FUND IN G              JSAs
  45.     SUNY at Albany                                                              000
  46.     Intertribal Friendship House                                            20, 000
  47.     Chinese for Mfirmative Action                                               000
 48.      University         of     Maine                                         18, 646
 49.      New Mexico State University                                             18, 071
 50.     University          of     Minnesota                                     18, 000
 51.     University of WashingtOn                                                    960
 52.     University of Sacred Heart                                               16, 727
 53.     Center        of   Studies at Argentina                                  15, 600
 54.     University         of     New Mexico                                     15, 161
 55.     Michigan State University                                                15, 023
 56.     Chicano Federation of San
         Diego                                                                    15, 000
 57.     Institute of St. Louis                                                      000
58.      San Francisco State Univ.                                                15, 000
59.     Johns Hopkins University                                                     998
60.     Korean Youth Center                                                          998
61.     Louisiana State University                                                  930
62.     Los Angeles Health Care                                                     910
63.     Inst. for Community Research                                                880
64.     Oklahoma State Universitv                                                   843
65.     Telegraph Hill                                                              164
66.     Hispanidad                                                               13, 750
67.     Community Housing
        Partnership                                                                 448
68.     University of             Oklahoma                                          081
                                        . '              - '




                                                                                                    asre 4


                           Census Bureau Joint Statistical Agreements                   (JSA)
                                              Fiscal Years 1989 - 1992
       NAME OF NONPROFIT                                            CENSUS BUREAU               NUMBER OF
          INS1TIUTI ON                                                  FUND IN G                 JSAs
69.    University     of     Mississippi                                          094
70.    Native American Educational                                           11, 036
71.    Alaska Native Foundation                                              10, 000
72.    North Park College                                                         527
73.   Minnesota Indian Womens
      Center                                                                      457
74.   University     of      Wellington                                           200
75.   United Cambodian Commission                                                 212
76.   Guadamee Community Health
      Center                                                                      516
77.   University     of                                                           815
                    TOTAL                                               $ 6,468   374              143
                                                                                                                                            ,..
                                    .....
                                                                                                                                                                                     ....



                                                                                          Buret: ' ' Ao Census

                                                                           Scl~lt:d Jojn~lstical               Agreemcnls

                                                                                                 with

                                                                                          Nonprofit Institulions

                                                                                  fiscal Years 1989       to 19921



     Name of
    Nullj,mfit                                                                                                                     Period
    Institution                                                                                                                                                      Nonprofit
                           JSA Number, Title , Dclivembh:s                                                                                     Census Bureau         Inswution
                                                                                      Total Bstimated Cost'
                                                                                                                          Pcrfonnllnce .       Representative
  University ot
     JSA-90-28: " Attrilion and Time-                                                                                                              Rcpreacntativc
 Michigan                                             In- Pnncl              Consul Bureau
                     Eftects in Ihe Survey of Income and                                                 48, 634
        08/01/90 -
                                                                            University                                                                          Not specified.

                     Pmgmm Participlliion (SfPP): Model                                                  13,             04/30/92*
                     Developmcnt" ,
                                                                              Total                            190*
 University of       JSA.90.32: " Longiludinal Mlcmtion of
 Michignn                                                                   Census Burellu
                     YounG Adults: CohOl1 Comllarisons
                                                        000    , 09/04/90
                                                                            University                                  06/28/91 '"
                    The lJlliwrsily will pruvi.le the CCIINUS
                                                                              '1'111111                     357
                    Burellu with eighteen SAS work-filcs 

                                                                  and a

                    manuscript reporting the findings 

                                                             ot   thc
                    analyscs conducted undcr the JSA. ,

 University of      JSA-90.~6: " Some Nonsampling Error

Michignn                                                                    Census Bureau              97, 29S
                    Cunshlcmliu/ls in Analyzi/lg Prllgnlln
                                                            09/01/90 ­

                                                                            University                 30, ~~1         02/28/92*

                    Participation in the SIPp.
                                                                             Tolal                  $ 128, 147
University ot
      JSA-90- S4: " Dcsigning Quick Rcsponse

Michigan                                                                   Census Bureau               32,073
                    Surveys for EclI/lllmlc Progmms
                                                                   09130/90

                                                                           Univcrslly                  10.470          09/30/92*


                                                                             Tollil                    42, 543
University IIf     JSA- 91- 11: " Metropolitlln     Concepls IInd

Michigan                                                                   Ccnslls Burcuu              18, QOO        04/01/91 ­
                   Statistics

                                                                           University                     620         12/31191
                   - The University will provide two
                                                                            Tollil                        620
                   updntclprogrcss reports ,    present th~ dml\
                   report at a conference tu' bc ticl~ In the full
                   ot 1991, and 1\.."Vlse the dtuR   report to take
                   1/lIoliOcollnt changes suggested at Ihe
                   conference.
Univcnity of
      JSA-91- 18: " Longitudinal Imputation in the
Michigan                                                                   Census Bureau           $ 181, 103         09/01191 -
                   SIPP"                                                                                                                    (Need to locate
                                                                           University                                 03/31193
                                                                                                   ~17                                      copy of JSA)
                                                                            Totnl                  $ 231, 540
          ,-                                                                                                                           .....
                                                                                     Bur~       hlS   Census
                                                                           Selected Join    S'i'atisliclIl Agreemcnts
                                                                                           with

                                                                                  Nonprofit Institutions

                                                                                Fiscal Yellrs 1989 to 1992


    Nnme of
    N"lIprnfil                                                                                                            Pcrind                            Nonprofit
    Inslitulinn              JSA Number, Title, Deliverables                                                                             Ccnsul Bureau      Institution
                                                                                  Tntal Estimated Cost'
              Perl'onnance 4   - Representative   Representative
 Univcrsity III'    JSA.91. 22: . A Clloperulivc Effort III                 Census Bureau        $ 250 000           09/19/91 .

 Michignn,          PnlVlde Ihe Acndemic Community with                     University           $ 267, 000          09/30/93

 (ICI'SR)           Access 10 1990 Census Computer-TlIl'c                   External             S 427.5                               Services

                    Dutn Pnl,lucls
                                                                                                                                       Division

                                                                              T..lal             $ 9. 14, S()()*

                   The Uniwr:iilY, Ihruu~h Ihe ICI'SN, will
                   provide Ihe uendemic community with                      The IIIUrCI: of cxlernal funding

                   dl'l' liv.. IlIhldfil'il'nl 1I""l'ssli, Ihe              iN Ihll HI)l'dlic.J in Ihe J51\. 

                   cmupuh:"-I:.pe Ilah, I'rellIUl'IS fnlll! Ihe 1990
                   dcccnniul census,
University III'    JSA- 90. 22:   . AIlIlIYl.ins AltilUllcs 1111,1          C~nH"H Bnrl"        $ 960       000'    o5/oi/90 ­

Chi.:"SII          (:Jmrnelcrislics IhuI '   At'ti:l'I Ihe Do:cisiun III    University                              12/31/90*

Nnlionul           Part!Cipale in the Dccennilll Census
Opinion
                                                                             Total              $1, 045 513
ResCIlrch          NORC will colleci nnd anlllyzc data Ihnt
Ccnler             will produce an understanding nnd
(NORC)             comparison of the characteristics and
                   altitudes of the populatiim based nn their
                   participali.,., or nllllpnrticil'Ulion in Ihe muil
                   component of the Census. The Univcrsily
                   will pnlVide II ualu lape, un order book, and
                   curics of Ihe t.Jllcsliunnuirc     with its final

                   rcport,

Univemly of        JSA.90-60: . Assessing the Total Error in               Census Burenu              81, 649       09/24/90 ­
Chicago            the 1990 Post- Enumeration Survey.                      University                 21, 228       09/30/91
(NORC)
                                                                             Tolul                    102, 877
University III'    JSA- 89. 10: " Evllluutiun orlhe 1989 Pilot             Census Bureau                    168     04/01189 -
Murylund           Tt.'St of Alternate Methods to Count the                Univetllily                22.           08/31/89
                   Homeless
                                                                             Total                    52, 269
                   The University will provide an inlerim
                   n:port on tlte progrcss of lit.: work, the
                   master list and record data compiled, and a                                                                                                             I-'
                                                                                                                                                                           v.I
                   final I'CpOrt.
,-.,                                                                                                              , $
                                                                                                              '--.......          ()()()                                                                  ....




                                                                                                  nlln:u'k'                ~ts Ccnllull

                                                                                    Selected Jpint Stulillticul Agreements

                                                                                                     with

                                                                                             Nonprolitlnstitlltions

                                                                                           Fiscal Years 1989 to 1992


       Nllm... tlf


       NtllIl'ru!il                                                                                                                                 Pcrin,t                                Nonprofil
       IIIKlillilidn                                                                                                                                    III'           Cellllll Bureau
                                JSA Nlllllhcr. Titll.l , OclivcrublcK
                                                                                                 TIIIUI Eslimaled CMI
                                                                                                                                                                                           Inslitlltinn
                                                                                                                                               I'l.Irtiltll1l1l1ce 4   Reprclcnlulivc    Representative
  tJlliVl.lrsily III'    lSA. 1I9, 14:   M
                                      Applying Mnlhl.llllnlh:ul
                     Ccnsl/s DI/rc/ln                      $ 31, 478         07/01/90.
  Marylallll               msnllnming Algorilhms III Slutislicnl
                    University                                   550        06/30/90
                           rubh:ms
                                                                                       1'111111                            $ 64, 028
                         Thl.l IIlIiv~' r'ity will .!evellllllllltl' imllk' mclIl                                                                 CLOSED

                         IIlgurilhms fllr cIIlIIl'lc,"l:nlllry 1IIIIprcIsilln                                                                   , (08/10190)

                         in slnlislicnllnhll:llIsing FORTRAN,
'1II1IWI    ~ily III'   JSA K" .!(); " l'oIrOilid l' I"~' !iKillg IiII'              ecu~us (lufCal!                                         011/0 ilK!).
 Maryl:llul             Gcngnlphie Allplicalillns                                    Univcfsily                               :lO. 28S       09/30/91
                         111e UnivcrRilY will Cvllhll,le line IIr mllre               .....1111                                   211S           CI.OSI!I)

                        cnm(lllleri~ed IYllellls fllr Illuding and
                        prllcesslng existing dalabasel (TIGI.!R
                                                                                                                                                (12/12/91)

                        QUILT), and snnle n:lalillnal dnluhase un
                        Ihc Cunnl.'Clilln Machine. '

University of           JSA-S9.32: M I.!/'fielent Juinl      Triunglllllilun        Census aUfeUU                                99S       , 09130/119 '

Mnrylalltl              flit Mallpillg                                              University                                              09/30/90

                         nl" Unlvcrslty will clevc"ll) and illlplclllcni
                                                                                      Tulul                            $ 33 408                 C/.OS(!D
                        algnrilhrn. lu 'IrcumUne jllinl trillnglllillilln
                        1I)lI:nllllllll IIsc,1 hy Ihc CellslIl Bureall.                                                                        (12/17/91


Univl.lr5ily IIf        JSA. 90.14: " Invesligutillns ufOmsl                        Census lJureall                    $ 20 OIS.            04/01190.
Maryland                I.!mplllYlllcnl Change.: Mc.:uSIINS Ihr                     Univtlfsity                                             03131/91
                        Developmenl as Censns Bureau Economic
                        Dala PM),IIICls
                                                                                     Tn1111                           $ 39 765

                                                                                    .'1'his JSA duc~ nnt involve u
                                                                                    transfer of funds.


                                                                                                                                                                                                          t.M


                                                                                                                                                                                                          I-h
                                                                                           ,,-.....,                                                                        ......




                                                                                     Bur~; ,            ~ Census
                                                                          Selecled joinl               .Jticlil Agreements
                                                                                               with
                                                                                 Nonprofit Institutions

                                                                               Fiscal Years 1989 to 1992


    Nllme III'
   Ntlllt'rulil'
                                                                                                                Period
                                                                                                                                                             Nonprofit
   Institulinn
             , JSA Number. Tille, Delivcrubli:s                                                                            CenlUI Bureau
                                                                                Totnl Estimnted COlt)                                                        Institution
                                                                                                                         Pcrfonnance .    Representative   Reprcacntativc
University lit"       JSA- 9()"31: " Using Opcrutlons Rcleureh to
                                                                           Census But'Cllu              S 37, 504      07/0.,90 ­
Maryland               Pind C\lmpllJtncntary Suppress Cells ih
                                                                           University                                  06/30/91
                      TIlree Dill!l:lIsionnl Tllhulnr Dala
                                                                            Tollil                     $ 93 642             CLOSED
                       rhe University will dcveill" ami implement
                      algorithms fllr complemcntary SIlPl'reSlilln                                                         (11/06/91)
                      in thrce dimensillllnl stlilislicllltllbles using
                      FORTRAN.

                     .The pmjcct dc!!eriptionlllld deliverable!! of
                     Ihis JSA arc siOlilnr to those of JSA- 89-
                                                                    14.
University of        J8A- 91-05: " Intervil,.-wcr A!!signrnentand

Muryhmd                                                                   Census Bnreau                $ 2t, 000      02/01/91
                     Routing

                                                                          Univenity                                   08/01/92.
                     The Univursity willaequirc            pmgrummuble      TulUI                            198
                     gCc)gruphic inronnation system
                                                             and
                     trunsportlltilln phullling software pll\'kllgC!!
                     fllr IBM/AT coml'utible microenmputcn
                    IIml l,.'VulllllrU thel\1 in   tenns or their
                    cllpuhililies fur int\~grnlillg Cenills Bl/rclI"
                    gl,.'CJgmphie. ellt1ogml'hie. alld statisticlIl
                    duta, The Univcl'lity atlo will design and
                    implement algorithms for routing Cenlul
                    Bu1'Cau interviewers,  The algorilhms will .
                    be designed to interfllce wilh one of the
                    transportlltion planning software pnokages
                    1...'Sled.




                                                                                                                                                                            (,M
                                                                                                        , "":
                                                                                                     , ,

                                                                                              Burea'.       to Census

                                                                                       Suh:ctcd J()lnt Sfalistical Agroomunts

                                                                                                        with

                                                                                              Nonprofit Institutions

                                                                                            Fiscal Years 1989 to 1992


    Name III'
   Nullprufil
                                                                                                                      Puriod                          Nonprofit
   Inslilulion
               JSA Number, Tille, Delivcrllhles                                                                                   CenlUI Bul'C8u
                                                                                             TollIl Eslimaled Cosl)                                                 Inltilutlon
                                                                                                                                Pcrronnllncc 4   Representative
 tlniwl'llily III'
                                                                                                                                               RcprcacnJative
                       JSA 91 119: " SJlltlilll Or,lers fur Ccnsus
                                                                   111111               CunNu~ Burl:llu
 Marylltnd             Sampling Applicalions                                                                            000   02/01/91 .

                                                                                        Univcrsily                      14~   07/3 1/92*

                       The Univcrsity will evulllale altcmlllive
                                                                                         Tolal                  $ 21, 143
                       slrulcgics fllr ordcring II)alilll cI:lla Ihlll lire
                      used by Ihe Census Burellu and i mplemcnt
                      various lample point seluclion Nutines.
                      the rl' !lulls nflhl: l:vllhllilinn will he UIII:IIIII
                      I:/lhlllll:e, 1III\.'IIIIIIilll:, IIr lul'/l11:1II1:1I1 TIGER­
                      bllsed uppliclilions developed al Ihe Census
                      Bureau.
lIniversily or        JSA-91-10: " PllfIIIM Computing for
                                                                                       Census Burellu             25, 000     02/01/91 ­

Marylltnd             Census Appliclltions
                                                                                       University                 12.         02/01/92

                      The Universily will plan udvanced computer
                                                                                         Tolnl                    37, 293	       ctOSED

                      sludies on census al'plications , wilh an
                      emphpSis on paralic! computing and will                                                                   (12/~/91)

                      educale and lrain Census Bul'C8u 

                                                                     Ilaff in

                      advanc:cd uompuling leehnlqucs.




                                                                                                                                                                                   '1j




                                                                                                                                                                                   H'I
                                                                                                                                                                                   I-"
.-.



                                                                                    Bur~  )10 Census
                                                                          Scl~t~ Join tmAristical Agr~mcnls
                                                                                        with

                                                                                Nonprofit Institutions

                                                                              Fiscal Years 1989 to 1992


        , Name or
        N"lIl'rufil                                                                                                  Pcriod
        Institution          JSA Number, Title , Deliverables                                                                 Cenlul Bureau

                                                                                Total Ellimated COil         Performance 4    Representative
      University of    JSA-9H9: '" Advanced Stratcgles (or
                                                                           Cenlul Burellu    $ 42,000      07/01/91 ­

      Marylnnd         Finding Complementary Supprcssinns in
                                                                           University                      07/01/92

                       Complex Tables                                                               li~
                                                                            Tulul            $ 92, 148
                       The lIlIiwrsity willevuluate ulienl/ltive
                       strategies such as mathematical
                      programming for determining
                      complementary suI'Prcllil'lns in tuhlea
                      ailllilllr In tllule tllul ure used by the Ceusus
                      Bureau and implement various ocl1­
                      suppression routines. Research will provide

                      the Censua BI/rea" wilh justificalion (or
                      enhancing ceil-suppression stralegics
                      currently in use at Ihe Censul Bureau.

                      *The projecl description and deliverables of
                      Ihis JSA arc similar to thole of JSAs 89-14
                      and 90-:)1.

 University of        JSA-91-33: " Parallcl Computing (of                 Census Bureau     $ 175, 000    10/01191 ­
 Maryland             Census Applications                                 University           41.44      09/30/93

                      TIle Ulliveraity will plan advanced computer         Tolul            $ 216 446
                      studies on ccnsus applications with an
                      emphasis nn parallel compminc, and will
                      cducate and train Census Bureau slaff in
                      advanc~ computing techniques.

                      *TIle rille IInd pul'Jwsc of Ihls JSA arc
                      identical to thuse of JSA-91- 10,




                                                                                                                                               Ii'!

                                                                                                                                               I-"

                                                                                                                                                 .......   ~ j,



                                                                                     Bum., 4ho Census
                                                                          Sclcct~ Join tSi;tistical AgrCCitllmhi

                                                                                         with

                                                                                  Nonprofit Inslitutions

                                                                               Fiscal Years 1989 to 1992


   Name of

   Nonpn)fit                                                                                                           Period
   Institution          JSA Number, Title, Deliverablcs                                                                         Census Bul'Clu
                                                                                Tolal Eltimaled Cost
         Perfonnanec 4     Rcprcacntalivc
 The Urban        JSA- 89-04: " Analysis and Ver/fication of
                                                                           Census Bureau          49, 994    02/25/89 ­

 Institute        Income Doto from the 1984 Pllnel of the                  University                        12/31/89

                  Survey of Income ond Program
                  Participation (SIPP)"*
                                                                             Talal                   997	        CLOSED

                  The lIrhlln Institule will prepare two                                                        (O4/J8/90)

                  J'CSenrch papers, one of which will be
                 lubmitlc....1 fur pi'l'lIl'nlllliun at the Altlericlln
                 Siatislic"1 Asllilcialiun mcecllngs in AuJ.ttlst
                  1989. The second report, which will lerve
                 as the final deliverable , will be due on
                  12131189,

The Url)an       JSA-90-27: " The Dynamlo Relationship                     Census Burenu      $ 48 405      08/01190
Institute        Bctwl.ocn Houschold Evcnts and Muntbly                    University               OO6     JO/01/92*
                 Incnanc and Program Participation: The
                 Survey of Income "nd Program                               Tulul             $ 98 411
                 Purtleil)ation (SIPP) and the Panel Siudy of
                 Income Dynumlcs

                 "II~ Uman Institute will submll quartcrly
                 progress reports and prcpare two restarch
                 papen, the fint of which i. 10 be subm/lled
                 for presCRlution at the J99J meetings of tile
                 American Statisllcal Association. The draft
                 of the first paper was due on March 31,
                 J 990. The draft of the sccond paper was
                 due on July 31, J991.


The Urban        JSA-90-37: " Demographic Analysis                        Census Bureau      $ 75, 000.     07/01190 ­
Institute        Estimates of Census Undercount and
                                                                                                            12/31/90
                 Undocumented Immigration                                                                                                         II)
                                                                          *Project fully funded by Ihe
                                                                          Ccnsu. Bureau.

                                                                                                                                                 -...t     ~ I:
                                                                                                                                                 t1)
.. .                                                                                                 .'                                                  .....   ;:. .:




                                                                                           Bur~        . ~\O Census
                                                                                    Sulectoo Joint Slatistical Agretlments
                                                                                                      with
                                                                                           Nonprofit Institutions

                                                                                         Fiscal Years 1989 to 1992


          Name of

          NuIII)rufit                                                                                                        Period
          Institution            JSA Number, Title ,                                                                                    Cenaul Bureau
                                                              Dellve'rables               Total eltimaled COlt)         Perfonnancc 4   Representativo
       The Urban
         JSA-90-40: " MI.'thods of Counting                         Census Bureau        $ 13, 181    08/01/90 ­

        Institute         flumelc:ss Pc:rsons

                                                                                     University                        11/31190*


                                                    jf the: Urblln Institute IInd      Tolnl              $ 17, 316
                          cnsus urcnu w II
                                                     nd~rlhe
                                                     C~Pllpcrs.
                         The first paper will address the methods and
                        , II SSlllnl1tlllnl   us&:d 10 IIrrive 11111   nlliionnl
                         cslimllte of Ih.: li1-e of Ihe homc:less
                         population in Ihe Burt- Cohen sludy dono for
                         the Food and Nutrition Service oflho U,
                         DCI)lIrtmenl of Agriculture, Tho secolld
                        paper will COVen Ihe subject, " Introduction
                        to Methods Uled tor Counting Homeless
                        Pursons and Jmpli~tions of Methods for
                        Counts. "

       The Urban
       JSA-91-30: "Developing Survey                                Censul Bureau        $ 20, 000   10/~19t ­

       Institute        MCChodologles tor Counting Homeless                          University                       12131/91

                        Pursons, "
                                                                                      Tnlal               $ 24, 702
                        The Census Bureau plans 10 design a federlll
                        survey on humeless penons that will
                        estimate Ihe lolal nlliional homell.'81
                        populntinn. The Burenu will consull wilh
                        participating Pedel'lll agencies and relevant
                        oulside tCSCllrchers in developing the survey
                        design,

                        The Urban InSlilute will provide lummnry
                        papen and draft documentation on
                        recommended procedures which will                                                                                                II)

                        address the various isluel in the delign and                                                                                     CI)
                                                                                                                                                                    i '

                        development of the Pederal survey.

                                                                                                                                                         H-I
, ,_




                                                                                  Bum. ' '    be Census

                                                                          Seluctcd Jointmat!stical Agr~m~nb;

                                                                                         with

                                                                                 Nonprofit Institutions

                                                                               Fiscal Years 1989 to 1992

                                                                                             ,1.

          Name of
                                                                                                                       Period
         Nn"I)f\)fit
                                                                                                                                Cenlul Bureau

         Instituti"n         JSA Nlimber, Title , Deliverables                   Total Estimated Colt           Perfonnancc .   Rcpreac:nlatlvc
       The Urt,an      JSA.92. 01: " Designing a Federal Survey to         Ccnsus Bureau.          $ 40, 003   12/01/91 .

       Institute       Estimllte the Total Nationul Homeless               Institute                           04130192*

                       Population
                                                                             Tutul                 S 50 041
                       *The objectives and deliverables of this JSA
                       are identieiallo thosc of JSA-91.30, above.

    The Ort,an         JSA-92- 04: " Designing a Pederal Su rvey to        CenlUs -Bureau      S 27, 805       04/13192 

       Institi~        Count the Number nf Humele.. PeNons                 Institute                           08/14/92

                       Who Use Service Pacilities
                                                                             Total             S 34, 795
                       The Census Bureau plans to design a federal
                       survey that will provide national Cltlmatea

                       of Ihe literally homelcn population who use
                       servleCi. The survey will be designed
                       provide data comparable to tbe 1987 Urban
                       Institute survey on homeless penons in
                       cities of, 100 000 or more. Ir funding is
                       available:, II prelt:st will be ctlnducted in .
                       1993 and the survey In 1994.



                       The Urban    lnstitute will finalize the survey
                       questlnnnalre and tbc pnlCeduI'Cs for
                       obtaining the list of scr:vice providers,
                       Ilevc.:lop dl.1niled written descriptions of the
                       survey procedures, and provide thc' Census
                       Bureau with a rescurch paper that
                       recommends ways to evaluate coverage in
                       rural areas.
                                                                                                                                                  "t:I




                                                                                                                                                  H-I
                                                                                               $'                                                                    .....
                                                                                                                                                                     .....




                                                                                      Hurei , 38 Census
                                                                           SeltlCted Join r-.mctt~tical Agreements
                                                                                           with

                                                                                   Nonprofit Institutions

                                                                                 Fiscal Years 1989 to 1992


   Name of
   Nonrrolit                                                                                                              Period                      Nonprofit
   Instillnion                                                                                                                     Cenlul Bureau      Institution
                        JSA Nnmher, Title , Deliveruhlcs                           Total Estimated Cost)          PerCunnance 4    Reprelentative   Representative
Th~ Urnan        JSA- 92. 06: " Improving the Sialistical                    Census Bureau      $ 50, 000       06/01/92 -

Institut~        Infrustnlctur~                                              Institutc                  000     06/01193


                 Th~ Urban 'nstilul~ will write a series of                   Tutul             $ 75, 000
                 ,I"cllme' nls Ulllhc urj:llni1Jlli"nnl anti
                 lIuhSllllltive l'r'lhlclIIlI IIf Ihe U. S. IItulisticul
                 systcm and on proposals for administrative
                 nnd Ic(:islntivc arnlllgcllle' nis to improvc its
                 "Iteration. III ud,Utiun, the Institute will
                 begin development of a plan for a
                 Prcsidcntilll Commission to n..vil.'W public
                 policy nCt."!I. for sllltisticlIl (hlln and to
                 estnhlillh rriuritiel IiiI' refunn.
Harvan)          JSA- S9-0S: " Evllluathsn of Ihe Post-                     Census Bureau           59, 860    06/01189
University       Enumeration Survey for Sensitivity to                      University              69. 286    05/31/90
                 Measurement and Mlltching Error due 10
                 Nonresponsc                                                  Tntal            $ 129, 146


Harvard          JSA-90-23: " Evu iuution of Imputalion                     Census Bul'e4u     $ 125, 355      06/01190 -
University       Stralcgi.,. and Computer Malching Errors                   Univct.:ity                        01131/92
                 fill' the Post- EIIIUI1l:natioll Survey. .
                                                                             Tntltl                 250, 748        CLOSED

                                                                                                                   (06/05/92)

Harvan)          JSA-91-20: . Statistical Analysis of'                      Census Bureau      $ 101    316    OS/15/91 ­
University       Compulcr Linked Filcs                                      University                         02114/93"

                 The Univcrsity will dcvclop mcthods for
                 analyzing files that bave been linked using
                                                                             Totul             $ 205 978*
                                                                                                                                   III
                                                                                                                                                                     '"CI
                 various cumputcr matching algorithms.

Harvard          JSA-91-31: " ResearCh on Missing Data               and    Census Bureau           6S,391     09123/91
University       Post Enumeration Survey Evatuation                         Univcrslty ,              493      01/31/93*
                 Methods
                                                                                                                                                                     H-o
                                                                             Total             $ 137, 884
                                                                                                                                                                        .....
                                                                                                                                                                        .....




                                                                                      Burl! ,he Cemms
                                                                           Selcch:d Joiri'hn~iistlcal Agrcemcntll

                                                                                          with

                                                                                  Nonprofit Institutions

                                                                                Fiscal Years 1989 to 1992


    Name of
   Nunl)mru                                                                                                          Period                              Nonprofit
   Institution          JSA Number, Tille , Deliverllbles                                                            . of          Census Bureau         Institution
                                                                                  Total Estimated Cost          Perfonnllnce 4 ,   Representative      Representative
 Ilnrvllnl
       JSA- 92- 09:   Awllrtl pending.
                                                                             Census Bureau     $ 100 000
 University


 Universily of    JSA- 91- 04: " Inslitute fur Hemispheric                  Census Bureau      $ 315 790       02/17/90 ­
 Pucrtl'l Rico    Studies Continuing Snl)\'Iol1"                            University                 822     09/30/91 *

                 TIle JSA is hllsed IIn a Memol'llndum of                                                                                           Advanced Studies
                                                                              Tutal           $ 601, 612*
                 Understanding between Ihe Census Burellu,                                                                                          nn Government
                    ' tllliwrsily
                 1111,              IIf   l'In'   lt" Ri~"   . -11,1 the                                                                            Management
                 Ceuter fllr Advllnecd Studies on Public
                 Managemenl, Gn thu establishment of an ,
                 Institute for Hemispheric Studies, un
                 Independent public col'))(lmtion, ullder the
                 laWl of the CummllnWCllllh Gf Pucl1n Rico,
                                      a Census Bureau
                         I: c I 1:1 ,              ai dcsign'atc..-d
                 serve as Ihe Inslitutc .
                                       Director, The cnd
                 pmduci of the JSA I. an Gpemlional

                 hemispheric stiadies J'lmgmm:
lawn Slah~
      JSA- 89.02: " estimation            fnr   Survey Dala     Census Bureau         93, 600      01101/91 ­
Univcrsity
                                                                           University            49.          12/31/91

                                                                             Total               142   931.
lawn S,ate       JSA-90-07: . " Topics in Survcy t:slimation               Census Bureau            000       01/01/90 ­
University
                                                                           University               748       12/31/90

                                                                             Tulal               114, 748
Iowa Stale       JSA-90- 41: " estimlltion of Mlldel Vllriance             Census Burenu         19, 505      08/31/90 ­
University       In empirical Bayes Smoothing                              University            11.          06/30/91

                                                                             Totul               31, 464         CLOSED
                                                                                                                (09/18/91)
                                                                                 ,',                                                            . (




                                                                          Burea        '0 Census
                                                                   S~ll!Ct~ Joint 'maiistical Ag~mc:nl!l
                                                                                    with

                                                                          Nonprofit Institutions

                                                                        Piscal Years 1989 to 1992


    Nnme of

    Nllllilculil                                                                                                 Pcric)d                      Nonprofit
   Inslitution           JSA Number, Title , Dcliverubles                                                                  Consul Bureau      Institution
                                                                          Tolal Estimated Cost
         Pcrforinllnce 4    Rcpreacnlative   Rcpreaenlativc
 Iowa State        JSA-91-01: " Estimation for Survey Dnta          Census Bureau             600     01/01/91 ­
 University
                                                                    Univcrsily                        12/31191

                                                                      Tutlll              142, 931*
Iowa Slnte         JSA-91-21: "Statistical Anlllysis of
                                                                    Census Bureau         IIJ ,000    10/01/91
University         Surveys                                          University            56. 54~     12/31/92

                                                                     Tlltal               167, 54S.
JOWl! Stnh:
       JSA-92.Q7: Award pending                         Census Burenu             000
tJnivursity
CnmeSh:            JSA-91-25: " A Comparutivc Evaluation of         Census Burl:4u     -$ 230 000     10/OW)) ­
Mcllon             I'Drullcl Computing Envlnlnmcnts for             Univcrsity                        09/30/93
University         Stalistics
                                                                     Total             S 331, 106
                   The University will uvalullte the
                   effcclivencss of three computer systems for
                   stntistlcs. The JSA stilet tbatthe results of
                   Ihe CYululltiun could innuencc tbe chOice of
                   future Census J)urellu compuler syslems,
Univcrsity of      JSA-90. 49: "Stochastic Pmpagation of           Census Bureau             7oo      10/01/90 ­
Illinois           (!rror in PIII)ldntion Porecasls                University                S2~      11/1S/91

                                                                     TolDI                31,222          CLOSED

                                                                                                         (05/08/92)





                                                                                                                                                             I-'

                                                                                                                                                             t-t.
                                                                                                                                                             I-'
... -                                                                                                                                                                ,'
                ....
                                                                                                                                                                                         ....




                                                                                        Bure          '110 Census

                                                                                 Sel~ted Joirir';)'U(iistical Agn:ements

                                                                                                with

                                                                                        Nonprofit Institutions

                                                                                      Fiscal Years 1989 to 1992


           Nnme of

           Nonprofit                                                                                                          Period

           Institution            JSA Number, Title. Deliverables                                                                             Censul BUlQU

                                                                                        Tolal Estimalc.'d Cosl'

                                                                                                                          rerfonnancc .       Rcprcaentativo
        University of       JSA- 91. 06: " Developing IInd Evllluating
                                                                                   Cens". BllrC/lu      $ 84, 500      . 02/01/91 ­
        Illinois            Reinlel;Vit.'W Methods nnd Questionnaircs
                                                                                  University               34. 600       06/30/92
                           Th~ university will develop Ninterview                   Tolal            , $ 119, 100
                           procedures thai provide estimates of
                          - "-'sponse: bias and variance, study the
                           cognitivc IISpccts of Ninterview
                           clllcstionnnires . slllefy the cl)gnitive asllCets

                           lit' rcinh:rvic:w pruc:ceillres, 1IIIClllnlville

                           alternative methocb for systcmlltieally

                           evaluating the quality of survey dlllil

                           thmugli rclntervicw procedures.
        University of      JSA-91-29: " Developing and Evuluating                 Census Bureau           97,300        OS/OJ/91 ­

        Illinois           Rcinlcrvicw Methods and Questionnairel                 Universily              34. 600       12/31/92

                           *The lille and pllrpose ()( thil JSA are                Tolnl               $ 131, 900

                           identical to thoso of JSA-91-06.       .

                                                                                 Census Burcllll       $4, 197, 199
                                                                                 University            $1. 981,
          TOTAL                   45 Joint SllIlisliclll Agreements                Tolal               $6, 178, 969

    I. SRlnl!lc inclllclcci JSAs wilh nille nllllJlrufit
                                                         organizatillns thllt receivcelll~ure thun twn' lhire)s of Ihe loIalallloullt of funds awarded by the Cenaus
    pcrfonncd IInder jnint slatistical agreements tinct fiscal year 1989.                                                                                            Burc:au for work

    2. JSA   deliverables illCllldc Jleriodi~ (monlhly, qllllrterly, IIr lIIid-teml) progress
                                                                                                reporlsand a finlll report unless olherwise specified.
    3. Aslerisk denofes nn increase in estimated
                                                       costs due to IIn approvc:d expansion in the scope of work 10 be pcrfonncd
                                                                                                                                        under Ih~ JSA,
                                                                                                                                                                                         II)
    4. Asterisk denotes   IIn approved extension of the project completion dale.
                                                                                                                                                                                         CJ)




                                                                                                                                                                                        H-I
           ,'                   . ~~ '---,
                                       ~'
                                  ~..t OF "o

                                                 	
                                                ":-              ~~ ~                    ~"
                                                                                         \ ~)':::)    "\

                                       of"            UNITED STATES DEPARTMENT OF COMMERCE
                                                      Bureau of the Cansus
                                    7':""'- '
                                                      Washington. DC 20233-0001
                                   ~.mscfr
                                                      OFFICE OF THE DIRECTOR



                                  ATTACHMENT
  ,I. '
 -'1" ,

 "i\l1 .    I.~w
               ,~




MEMORANDUM FOR	 Frank DeGeorge
                    Ins~ector General

                    Off~ce of Inspector General


From:	              B~rbara
                    D~rectorEveritt Bryant                                        i-il
                                                                                                     a:..I
                    Buree u   of the Census 


subj ect:	          Draft Report on Inspection of the Census Bureau'

                    Administration of Joint statistical Projects

                    (SED-5049-XXX)

We appreciate the opportunity to comment on the subject report,
and agree with the report' s recommendations. The Census  Bureau
                                                     (JSAs) for
has in good faith used Joint  statistical Agreements
the past 30 years to achieve  important research and program

objes;:ti ves .
We concede there have been cases where the use of a JSA has been

ambiguous; we believe , however, the JSA mechanism is effective
and should be continued. In order to do so, we obtained a
General Counsel decision on their use as you suggested. That
decision recognizes the basic authority to enter into JSAs, but
will require us to apply the procedures extant for either
(a) contracts, or (b) cooperative agreements. We are hopeful
that the additional procedural requirements wili not unduly
impinge on our continued use of JSAs to ac;hieve our mission.

We intend to proceed along two basic paths. First, we will work
wi th the Department of Commerce (DOC) to put in place the
necessary process, procedures, and controls to assure we comply
with the basic findings of your report with respect to the use of
cooperative agreements. Second, we will assess the feasibility
of meeting our legitimate JSA requirements through the
application of either contract instruments or cooperative
agreements. As suggested, should we find the need   for additional
                                                the DOC.
legislative authority in Title 13, or otherwise , we will pursue
that objective in concert with 

       ..."           ...               . ..




SPECIFIC COMMENTS:

Below , we show specific comments on statements included in the
draft report , referenced by their location in the report.
Page 2, line 1 - " ... for the past 2 0 years.  This should be
changed to 11 3 0 years. The Census Bureau instituted the    first
agreement in the time frame of 1959-1962.

Page 9, line 1 - " ... a draft and final report, and a data

tape, an order book     " should read      a data tape , a code

book
In response to the recommendations, we agree we will:

       Administer our joint statistical projects under the
       established federal financial assistance and procurement
       laws and regulations and Department of Commerce policies and
       procedures , in light of ~~e Office of the General Counsel
       opinion.
       Designate a management official with the authority and
       responsibility for ensuring that the Census Bureau I
       participation in joint statistical projects is administered
       correctly.
       Revise the policies and procedures contained in Chapter K 21
       of the Census Administrative Manual as necessary to ensure
       that they comply with relevant federal financial assistance
       and procurement regulations and Department of Commerce
       policies and procedures.
